<html>
<title> - NOMINATION OF JONODEV OSCEOLA CHAUDHURI TO BE CHAIRMAN OF THE NATIONAL INDIAN GAMING COMMISSION</title>
<body><pre>[Senate Hearing 114-13]
[From the U.S. Government Publishing Office]




                                                         S. Hrg. 114-13
 
NOMINATION OF JONODEV OSCEOLA CHAUDHURI TO BE CHAIRMAN OF THE NATIONAL 
                        INDIAN GAMING COMMISSION

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 11, 2015

                               __________

         Printed for the use of the Committee on Indian Affairs
         
         
         

         
         

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         
         
         
         
         
         
         




                               U.S. GOVERNMENT PUBLISHING OFFICE
     94-555 PDF                        WASHINGTON : 2015             
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001







         
         
         
         
         
         


                      COMMITTEE ON INDIAN AFFAIRS

                    JOHN BARRASSO, Wyoming, Chairman
                   JON TESTER, Montana, Vice Chairman
JOHN McCAIN, Arizona                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska               TOM UDALL, New Mexico
JOHN HOEVEN, North Dakota            AL FRANKEN, Minnesota
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                HEIDI HEITKAMP, North Dakota
MIKE CRAPO, Idaho
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Anthony Walters, Minority Staff Director and Chief Counsel
       
       
       
       
       
       
       
       
       
                                     (II)     
       
       
       
       
       
       
       
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 11, 2015...................................     1
Statement of Senator Barrasso....................................     1
Statement of Senator Franken.....................................    18
Statement of Senator Heitkamp....................................    21
Statement of Senator Tester......................................     2
Statement of Senator Udall.......................................    19

                               Witnesses

Chaudhuri, Jonodev Osceola, Nominee to be Chairman of the 
  National Indian Gaming Commission..............................     2
    Biographical information.....................................     6
    Prepared statement...........................................     4

                                Appendix

Letters and resolutions in support of Jonodev Osceola Chaudhuri 
  from:
    Arizona Indian Gaming Association (AIGA).....................    28
    Hon. John L. Berrey, Chairman, Quapaw Tribe..................    26
    Hon. Stacy Dixon, Tribal Chairman, Susanville Indian 
      Rancheria..................................................    26
    Ho-Chunk Nation..............................................    29
    Hon. Robert Pinto, Sr., Tribal Chairman, Ewiiaapaayp Band of 
      Kumeyaay Indians...........................................    25
    Hon. Richard J. Peterson, President, Central Council Tlingit 
      Haida Indian Tribes of Alaska..............................    26
    Hon. Ty Vicenti, President, Jicarilla Apache Nation..........    25
Response to written questions submitted by Hon. John Barrasso to 
  Jonodev Osceola Chaudhuri......................................    30


     NOMINATION OF JONODEV OSCEOLA CHAUDHURI TO BE CHAIRMAN OF THE 
                   NATIONAL INDIAN GAMING COMMISSION

                              ----------                              


                       WEDNESDAY, MARCH 11, 2015


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Barrasso, 
Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    The Chairman. Good afternoon. I call this nomination 
hearing to order.
    The Committee will consider the President's nominee, 
Jonodev Chaudhuri, to serve as the Chairman of the National 
Indian Gaming Commission. Last Congress, he was nominated to 
serve as the National Indian Gaming Commission Chairman, on 
July 22, 2014. The Committee held a hearing on the nomination 
November 12, 2014. The nomination was returned to the President 
on December 17th.
    The President once again nominated Mr. Chaudhuri on January 
8th of this year. Early consideration of this nomination, I 
believe, is important for a number of reasons. The position has 
been vacant since September 2013, which is far too long. It is 
an important position charged by Congress with significant 
regulatory responsibilities in the Indian Gaming Regulatory 
Act.
    This law established by the National Indian Gaming 
Commission as an independent agency within the Department of 
the Interior. The full Commission is comprised of the chairman 
and two commissioners.
    According to the most recent data from the National Indian 
Gaming Commission, Indian gaming has grown to a $28 billion 
industry. An industry with this amount of money flow requires 
the commission to be appropriately staffed.
    The commission must also promote integrity and 
accountability through regulation and enforcement. I have met 
personally with Mr. Chaudhuri. I am confident that he intends 
to ensure these principles are carried out by the commission 
and this industry.
    I have called this hearing so that all our members have the 
opportunity to hear from and ask questions of Mr. Chaudhuri. I 
intend to work with the Vice Chairman on moving this nomination 
expeditiously.
    Mr. Chaudhuri, congratulations on your nomination. Welcome 
back to the Committee. We look forward to your testimony.
    First, Senator Tester, do you have any opening statement?

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. I have a brief one, thank you, Mr. 
Chairman.
    I too want to welcome Jonodev here to the hearing today. I 
appreciate you being here. And I do look forward to working 
with you, Mr. Chairman, to move Mr. Chaudhuri out as quickly as 
possible for confirmation. Hopefully we can get you permanently 
into this position, because Indian gaming is incredibly 
important to Indian country. We have seen tremendous growth 
since 1988, providing jobs, providing funding for essential 
services, infrastructure across Indian country. And this 
Commission that you will oversee on a permanent basis hopefully 
is crucial to the oversight to protect the tribes and their 
members and maintain the highest integrity in their gaming 
industry.
    The purpose of this hearing is to hear how you plan, Mr. 
Chaudhuri, to carry out the Commission's oversight role while 
supporting tribal self-sufficiency and ensuring the tribes are 
the primary beneficiaries of the gaming operations. We need a 
good person in this position, someone who exhibits good 
leadership. And you have already provided good leadership in 
this position, albeit on a temporary basis.
    You also have an extensive background in Indian affairs, 
and you are highly respected in Indian law and Indian gaming 
communities. So I want to thank you for your service so far. I 
look forward to your testimony. I appreciate you putting 
yourself up for this position. I think you will do a great job 
and be able to continue doing a great job once you are 
confirmed.
    It is good to see your family here. I also note not only a 
wife and two kids, but Legislative Affairs, which is probably 
feeling like he's part of the family too, right?
    Anyway, thank you very much, Mr. Chairman.
    The Chairman. Thank you very much, Mr. Vice Chairman.
    Mr. Chaudhuri, please proceed.

STATEMENT OF JONODEV OSCEOLA CHAUDHURI, NOMINEE TO BE CHAIRMAN 
                 OF THE NATIONAL INDIAN GAMING 
                           COMMISSION

    Mr. Chaudhuri. Thank you, Mr. Chairman, Mr. Vice Chairman. 
Hensci, or hello, greetings in the Muscogee Creek Language.
    Thank you for providing me this opportunity to discuss my 
interest and willingness to serve as Chairman of the National 
Indian Gaming Commission. I am deeply humbled that the 
President has resubmitted my nomination to you.
    If confirmed, I intend to honor the President's confidence 
and your support by serving the NIGC and the general public to 
the best of my abilities.
    As you are aware, as you mentioned, I appeared before this 
Committee in a prior nomination hearing four months ago during 
the last Congress. I want to personally thank you, Chairman, as 
well as you, Vice Chairman, for the courtesy meetings that you 
afforded me that provided me an opportunity to sit down with 
you and discuss my personal philosophy when it comes to 
regulation. I am excited to expand on my statements from last 
year and introduce myself to those members of the Committee who 
are new to this Congress.
    With me today are my wife, Marissa Chaudhuri, and my sons 
Kanuux and Hamati. Hamati is the little one and Kanuux is the 
big one. I am so very grateful for their continued inspiration, 
perseverance and support. Kanuux, who is almost 8, is here 
despite his criticism that the previous hearing did not include 
snacks.
    [Laughter.]
    The Chairman. We note that Grandpop stayed home.
    Mr. Chaudhuri. Well, unfortunately.
    Hamati, who just turned 5, is here with me today, but he 
was not here with me last year. The last four months have had a 
slightly beneficial impact on Marissa's and my trust in him to 
come out in public. We will see how that goes.
    I was ecstatic that my father was able to accompany me to 
the last hearing. Unfortunately, due to the heavy toll that 
travel takes on him at this age, he is not here today. But he 
is watching at home on the internet in support of his son.
    In my testimony last year, I provided you with an overview 
of my personal and professional background and the role that my 
family, both on my Muscogee Creek side and my Indian-American 
side have played in shaping my commitment to public service. 
Rather than re-stating all of that background, let me simply 
say that commitment to service continues to drive me in my role 
as Acting Chairman of the NIGC, and it is the basis for my 
continued interest in formal confirmation as Chairman. Please 
consider my testimony today to be an expansion of my November 
testimony, which I would appreciate being incorporated into 
this statement by reference.
    It has been my profound privilege to work with and lead the 
highly skilled and committed team at the NIGC. I am proud of 
the work that we have done together during my time at the 
agency to maintain stability in operations and services, while 
actively strengthening the regulatory structure of the Indian 
gaming industry. Much work remains, however.
    As I mention at every opportunity, I am a firm believer in 
the sound regulation of the Indian gaming industry. Sound 
regulation preserves public confidence, supports tribal self-
sufficiency and self-determination, protects tribal assets, and 
promotes a safe and fair environment for all people who 
interact with the industry.
    In various settings, I have repeatedly laid out priorities 
that I believe are well-targeted to ensure the sound regulation 
of Indian gaming. These priorities include the continued 
performance of all oversight duties, ongoing commitment to 
training, technical assistance and meaningful tribal 
consultation, staying ahead of the technological curve, 
supporting a strong regulatory workforce, both at the NIGC and 
among our regulatory partners, and strengthening dialogue and 
relationships with all relevant stakeholders.
    In implementing these priorities, I recognize the 
importance of adherence to an independent, principled vision of 
regulation consistent with IGRA. In the performance of my 
chairman-specific duties, whether approving gaming ordinances, 
management agreements or ensuring compliance and issuing 
appropriate enforcement actions, I have relied on some key 
guiding principles. They include the need to address and 
mitigate activities that jeopardize the integrity of Indian 
gaming and the valuable self-determination tool that it 
represents; swiftly act on anything that jeopardizes the health 
and safety of the public at gaming establishments, including 
employees and patrons; engage in sound regulation without 
unnecessarily stymieing the entrepreneurial spirit of tribes; 
and protect against anything that amounts to gamesmanship on 
the backs of tribes.
    In the year and a half since I joined the NIGC, I have been 
guided by these priorities and principles in my efforts to 
faithfully implement IGRA. During this period, I have been 
motivated by my family's belief in public service and the 
opportunity it provides to honor one's responsibility to the 
greater community. I believe my perspective continues to be an 
extremely strong asset to the NIGC and the sound regulation of 
Indian gaming.
    Should I be confirmed to serve as Chairman, I commit to you 
that I will continue to utilize my experience and perspective 
to perform my duties in the most fair, principled and practical 
manner possible.
    Thank you for your time today. I am happy to answer any 
questions you may have.
    [The prepared statement and biographical information of Mr. 
Chaudhuri follow:]

Prepared Statement of Jonodev Osceola Chaudhuri, Nominee to be Chairman 
                of the National Indian Gaming Commission
    Mr. Chairman, Mr. Vice Chairman, Members of the Committee, Hensci, 
or ``greetings/hello'' in the Mvskoke (Creek) language. Thank you for 
providing me this opportunity to discuss my interest and willingness to 
serve as Chairman of the National Indian Gaming Commission (NIGC). I am 
deeply humbled that the President has resubmitted my nomination to you. 
If confirmed, I intend to honor the President's confidence and your 
support by serving the NIGC and the general public to the best of my 
abilities.
    As you are aware, I appeared before this committee in a prior 
nomination hearing four months ago during the last Congress. I am 
excited to expand on my statements from last year and introduce myself 
to those of you who have recently joined the Committee.
    With me today are my wife, Marissa Chaudhuri, and my sons Kanuux 
and Hamati. I am so very grateful for their continued inspiration, 
perseverance, and support. Kanuux, who is almost 8, is here despite his 
criticism that the previous hearing did not include snacks. Hamati, who 
just turned 5, is here as the last four months have had a marginally 
beneficial impact on his trustworthiness to behave in public. 
Unfortunately, my father is unable to attend today due to the heavy 
toll that any travel takes on him now. I was ecstatic that he was able 
to come to the Committee's November hearing, and I know that he is at 
home in Arizona watching this hearing on the Internet in support of his 
son.
    In my testimony from last year's hearing, I provided you with an 
overview of my personal and professional backgrounds and the role that 
my family's values and experiences have played in shaping my commitment 
to public service. Rather than restating all of that background, it is 
sufficient for me to say that that commitment to service continues to 
drive me in my role as Acting Chairman of the NIGC, and it is the basis 
for my continued interest in formal confirmation as Chairman. Please 
consider my testimony today to be an expansion of my November 
testimony, which I would appreciate being incorporated into this 
statement by reference. \1\
---------------------------------------------------------------------------
    \1\ see the November 12, 2014 Indian Affairs Committee hearing.
---------------------------------------------------------------------------
    It has been a profound privilege to work with and lead the highly 
skilled and committed team at the NIGC. I am proud of the work that we 
have done together to maintain stability in our operations and services 
during a period of significant transition. Beyond simply keeping the 
agency running smoothly, however, we have actively worked to strengthen 
the regulatory structure of the Indian gaming industry during my time 
at the agency. Much work remains, however.
    As I mention at every opportunity, I am a firm believer in sound, 
sensible regulation of the Indian gaming industry. In addition to being 
consistent with the mandates of the Indian Gaming Regulatory Act 
(IGRA), I believe sound regulation is an essential pillar of support 
for the critical avenue to self-sufficiency and self-determination that 
Indian gaming has proven to be for many tribal nations. Sound 
regulation preserves public confidence, protects tribal assets, and 
promotes a safe and fair environment for all people who interact with 
the industry. I am committed to ceaselessly working to identify and 
employ all practical methods to support industry compliance with IGRA.
    In order to soundly regulate, we need to have the internal 
capabilities to track and adjust to an ever-changing technological 
landscape. I have taken active steps to ensure that the NIGC stay ahead 
of technological developments in Indian gaming and general operations 
management. Last summer, I worked with my fellow Commissioner, Dan 
Little, and our senior leadership to use our recent headquarters move 
as an opportunity to virtualize our server environment and upgrade much 
of our hardware and audio-visual components. Additionally, we recently 
offered tribes the option of submitting fees through Pay.gov. These 
improvements have already improved our ability to coordinate with our 
regulatory partners and safeguard information we receive from them. 
Soon, we will be able to expand our training and technical assistance 
capabilities to remote locations through the use of targeted webinars 
and online trainings.
    During my time as Acting Chairman, the Commission has engaged in 
formal tribal consultations on technology in Indian gaming. Further, in 
the performance of my Chairman-specific regulatory authorities, and as 
an ongoing matter, I regularly work with our compliance and legal 
professionals to assess whether various proposals and operations that 
employ unique and innovative technical approaches comply with IGRA. 
Through input received in our consultations as well as information 
gleaned in our day-to-day regulatory work, I have become increasingly 
mindful of the need to elevate and institutionalize our emphasis on 
staying abreast of technological developments.
    To this end, we are actively working to develop a comprehensive 
approach to staying on top of technology developments in the field and 
utilizing the most up-to-date knowledge available in the performance of 
all agency functions, including our oversight functions, our training 
and technical assistance, and our internal operations. Over the last 
several months, we have assessed various avenues to implement a 
cohesive technology vision that cuts across all agency functions. Most 
recently, the Commission announced its intent to develop a technology 
division that will further these efforts. Without significantly 
altering the overall staffing of the agency, adding the voice of a 
technology director to our senior leadership team will elevate the role 
of technology internally and help inform future agency actions.
    Although we already count among our numbers leading experts on 
gaming technology, the formation of this division is consistent with my 
philosophy that the preservation of critical agency expertise needs to 
be reflected in our agency structure and not be solely tied to the good 
fortune of having outstanding individuals on the team.
    At the same time, I believe that it is imperative that we continue 
to attract and retain the most capable and committed professionals that 
we can. For this reason, I am proud that our last federal employee 
viewpoint survey showed improved results for the agency in 78 percent 
of the survey's questions, many of the most significant gains being 
made in leadership categories. While significant work remains to be 
done, I believe the agency is on the right track in doing what it can 
to attract the most capable individuals to support its mission.
    Identifying all practical methods to enhance industry compliance 
with IGRA requires an openness to work with and listen to relevant 
stakeholders. I have previously discussed my commitment to continued 
consultation and cooperation with tribes who, per IGRA, are the primary 
regulators of Indian gaming. In addition to being solidly grounded in 
the law and consistent with longstanding federal Indian policy, 
executive orders, and our agency's strategic plan, continued emphasis 
on consultation with tribes and cooperation with the over 5,400 tribal 
gaming regulators in the field is simply the most efficient and 
practical way for the NIGC to fulfill its statutory responsibilities.
    I was proud that the Commission engaged in targeted consultations 
last year on topics that included technology in Indian gaming, and we 
are actively working to implement many of the helpful recommendations 
received through that dialogue. Additionally, the Commission recently 
announced a robust slate of additional consultations to take place this 
spring that will help us to further improve our regulatory and 
operational functions.
    In addition to formal tribal consultation, the NIGC must work 
closely with other agencies within the Federal Government as well as 
state regulators. While the NIGC may not always agree with its fellow 
federal, state, and tribal regulators, it is essential that we have 
open and frank communication. I am committed to improving those working 
relationships.
    While I absolutely will continue to listen to all relevant 
stakeholders, I recognize the importance of adherence to an independent 
internal vision of regulation consistent with the principles of IGRA. 
In the performance of my Chairman-specific duties, whether approving 
gaming ordinances and management agreements or ensuring compliance and 
issuing appropriate enforcement actions, I have relied on some key 
guiding principles. They include the need to:

  <bullet> Act within appropriate agency authority to address and 
        mitigate activity that jeopardizes the integrity of Indian 
        gaming and, by extension, the valuable self-determination tool 
        that it represents;

  <bullet> Swiftly act on anything that jeopardizes the health and 
        safety of the public at gaming establishments, including 
        employees and patrons;

  <bullet> Engage in sound regulation without unnecessarily stymieing 
        lawful economic development activities; and

  <bullet> Protect against anything that amounts to gamesmanship on the 
        backs of tribes.

    As someone who has witnessed the undeniable benefits the Indian 
gaming industry has provided to many Native communities, I know the 
importance of protecting it. It is not the job of the NIGC to 
artificially inhibit growth or the entrepreneurial spirit of tribes, 
however, it is our job to ensure that a strong regulatory structure is 
maintained so that the public continues to have confidence in the 
industry. An efficient, well-functioning, and effective regulatory 
structure protects the industry and promotes its integrity and health.
    Keeping these principles in mind has been quite critical for me in 
making the challenging decisions that I have already made as Acting 
Chairman, and I am comfortable that they will provide appropriate 
guidance to me should I be formally confirmed as Chair. These 
principles directly flow from the mandates of IGRA, and I believe 
adherence to them provides a clear path to sound regulation.
    In conclusion, my personal and professional background has provided 
me with a deep appreciation for the transformative impact that gaming 
has had for many tribal nations and their efforts to pursue self-
determination and economic self-sufficiency. I am honored by the 
opportunity I have been provided to assist in preserving the integrity 
of the Indian gaming industry.
    In the performance of my regulatory duties, I am constantly 
reminded of the core values that my mother and father shared and 
championed, primary among them a conviction that public service is an 
expression of a person's fundamental responsibility to the greater 
community good. Last November, I discussed specific family experiences, 
both on my Mvskoke (Creek) side and my Indian-American side that 
contributed to these values. In the year and a half since I joined the 
NIGC, I have done my best to be faithful to these values, and I believe 
my personal and professional perspective continues to be an extremely 
strong asset to the agency and the regulation of Indian gaming. Should 
I be confirmed to serve as Chairman, I commit to you that I will 
continue to rely on these values to perform my duties in the most fair, 
principled, and practical manner possible.
    Thank you for your time today. I am happy to answer any questions 
you may have.
                                 ______
                                 
                      a. biographical information
    1. Name: (Include any former names or nicknames used.) Full Name: 
Jonodev Osceola Chaudhuri Nickname: Jon

    2. Position to which nominated: Chairman, National Indian Gaming 
Commission

    3. Date of nomination: January 8, 2015

    4. Address: (List current place of residence and office addresses.)

        Residence: Not released to the public
        Office: 90 K Street N.E., Suite 200, Washington D.C. 20005

    5. Date and place of birth: January 13, 1972 Tallahassee, Florida

    6. Marital status: (Include maiden name of wife or husband's name.) 
Wife's Name: Marissa Janelle Chaudhuri; Wife's Maiden Name: Merculieff

    7. Names and ages of children: (Include stepchildren and children 
from previous marriages.) Oldest son: Kanuux Auwa Chaudhuri, 7 years 
old; Youngest Son: Hamati Tanagaax Chaudhuri, 4 years old

    8. Education: (List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.)

         Law School: Cornell Law School, Ithaca, NY, Fall 1996-Spring 
        1999, Juris Doctorate, 1999
         College: Dartmouth College, Hanover, NH, Fall 1989-Spring 
        1993, Bachelor of Arts, 1993
         High School: Tempe High School, Tempe, AZ, Fall 1985-Spring 
        1989, High School Degree, 1989
         Summer Programs: Pre-Law Summer Institute, American Indian Law 
        Center, Albuquerque, NM, PLSI Certificate, 1996
         Arizona State University Summer Math and Science Program, 
        Tempe, AZ, 1989, Summer math curriculum
         Additional Course Work: Attended ASU College of Law as a 
        Visiting Student during 3rd year of law school (Fall 1998 and 
        Spring 1999), and took targeted coursework at ASU after college 
        graduation (symbolic logic and an American Indian policy 
        course).

    9. Employment record: (List all jobs held since college, including 
the title or description of job, name of employer, location of work, 
and dates of employment, including any military service.)

         Acting Chairman, National Indian Gaming Commission (NIGC) 
        Washington, D.C.; October 2013-April 2014; July 2014-Present
         Vice Chairman/Associate Commissioner, NIGC Washington, D.C.; 
        September 2013-Present
         Senior Counselor to the Assistant Secretary--Indian Affairs, 
        U.S. Department of the Interior Washington, D.C.; June 2012-
        September 2013
         Associate Judge, Puyallup Tribe of Indians Tacoma, WA; April 
        2011-May 2012
         Deputy Public Defender, Maricopa County Public Defender's 
        Office, Phoenix, AZ; December 2010-April 2011
         Managing Attorney, The Chaudhuri Law Office, PLLC, Tempe, AZ; 
        February 2006-December 2010
         Associate, Snell & Wilmer, L.L.P., Phoenix, AZ; August 2001-
        February 2006
         Chief Justice/Associate Justice, Muscogee (Creek) Nation 
        Supreme Court, Okmulgee, OK; 2006-2012
         Appellate Judge, San Manuel Mission Band of Indians Appeals 
        Court, Highland, CA; 2009-2012
         Appellate Judge, Gila River Indian Community Court of Appeals, 
        Sacaton, AZ; 2008-2010
         Associate Justice, Yavapai-Apache Nation Court of Appeals, 
        Camp Verde, AZ; 2005-2009
         Adjunct/Visiting Faculty--

           National Judicial College--Criminal & Civil Jurisdiction, 
        Full Faith & Credit (2010)
           Phoenix College--Navajo Government (Spring, 2011)
           South Mountain Community College--American Indian Studies 
        (Spring, 2010)
           Phoenix College--Gaming; Jurisdiction; Practice Court (2000-
        2003)

         Judicial Clerk--Honorable Noel Fidel, Arizona Court of Appeals 
        (2000-2001)
         Judicial Clerk--Honorable James M. Ackerman, Arizona Court of 
        Appeals (1999-2000)
         Law Clerk--Federal Public Defender's Office (1999)
         Law Clerk--Muscogee (Creek) Nation Supreme Court (1998)
         Law Clerk--Salt River Pima-Maricopa Indian Community Court 
        (1997, 1999)
         Law Clerk--Maricopa County Superior Court, Honorable James H. 
        Keppel (1997)
         Culture and Enrichment Coordinator, Fort McDowell Yavapai 
        Nation, Fountain Hills, AZ, Fall of 1993 through Spring of 
        1996.
         Sporting Goods Associate (or similar title), Dartmouth Co-op, 
        Hanover, NH (summer of 1993)
         Dishwasher, Hanover Bakery, Hanover, NH (summer of 1993)

    10. Government experience: (List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.)

         U.S. Department of Justice, Office of Justice Programs, Peer 
        Grant Reviewer (2009, 2012)
         State Bar of Arizona, Indian Law Section, Executive Council, 
        Past Chair (2005-2006) and Executive Committee Member (2003-
        2007)
         Arizona Federal, State, and Tribal Court Forum (Overseen by 
        Arizona Supreme Court), State Bar Representative (2004-2007)

    11. Business relationships: (List all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.)

         Chaudhuri Law Office, PLLC, Manager, Managing Attorney
         Law Office of Robert Lyttle, Contract Attorney, sometimes in 
        Of Counsel Capacity

    12. Memberships: (List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.)

         State Bar of Arizona (Active)
         Washington State Bar Association (Active)
         Oklahoma Bar Association (Active)
         United States District Court, District of Western Oklahoma
         United States District Court, District of Arizona
         Muscogee Creek Nation Bar Association (Active)
         Dartmouth College Alumni Council, General Council and 
        Nominating Committee
         State Bar of Arizona, Indian Law Section, Executive Council, 
        Past Chair
         Construction in Indian Country (CIIC) Executive Committee
         Phoenix Indian Center, Past Member, Board of Directors
         Arizona State, Tribal & Federal Court Forum, Past State Bar 
        Representative
         American Bar Association Death Penalty Moratorium 
        Implementation Project Assessment Team
         Arizona Indian Economic Development Breakfast Forum
         Phoenix College Tribal Court Advocacy Advisory Committee, 
        Charter Member
         American Indian Veterans Memorial Organization
         Native American Heritage Preservation Coalition
         Arizona Volunteer Lawyers Program
         Native-POLL-ooza!, (non-partisan effort to increase Native 
        voter participation) Co-Chair/Principal Founder
         National Congress of American Indians Native Vote National 
        Election Protection Program Arizona director (2004)
         INDNS List, Past Arizona director of organization created to 
        identify and support Native American candidates for elected 
        office.
         Native American Community Organizing Project, Community 
        organizer and pro bono counsel
         Cornell Law Students Association
         Cornell Journal of Law and Public Policy
         Cornell American Indian Graduate Students Association
         Cornell American Indian Law Students Association
         National Native American Law Students Association
         Native Americans at Dartmouth, President, 1992

    13. Political affiliations and activities:

    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate: None.

    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years: None.

    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years:

         Contributions to Harry Mitchell for Congress: 3/4/09--$1,000; 
        9/16/08--$1,000; 6/10/08--$500; 11/29/07 $700; 10/16/06--
        $1,000.

         Contribution to INDNs List, Indigenous Democratic Network: 10/
        23/05--$1,070.

    14. Honors and awards: (List all scholarships, fellowships, 
honorary degrees, honorary society memberships, military medals and any 
other special recognitions for outstanding service or achievements.)

         Dartmouth College Tucker Foundation, Community Service 
        Fellowship Snell & Wilmer Community Leadership Award Muscogee 
        (Creek) Nation Supreme Court, Recognition of Service State Bar 
        of Arizona Indian Law Section, Recognition of Service as Past 
        Chair.

    15. Published writings: (List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.)

         Re-Creating the Circle: The Renewal of American Indian Self-
        Determination, University of New Mexico Press, 2011, LaDonna 
        Harris, Stephen Sachs, Barbara Morris, et al. Contributing 
        author.
         Fixing a Hole: Commercial Courts as a Tool for Tribal Economic 
        Development, The Arrow (Arizona State Bar Indian Law Section 
        Publication), 2002.
         The Yavapai of Fort McDowell, An Outline of Their History and 
        Culture, 4th ed., Mead Publishing, 1995. Chief editor and 
        contributing author.
         A Day In the Life of Tribal Court, The Defender (Public 
        Defender Publication), 2000.

    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated:
    Although I have presented publicly on a number of occasions, 
including on behalf of the NIGC, I do not use written scripts and 
therefore do not have copies of any formal speeches. I am attaching a 
copy of the written testimony I presented at the Committee's July 2014 
hearing on the future of Indian gaming, as well as the written 
statement presented to the Committee at my November 2014 confirmation 
hearing. \1\
---------------------------------------------------------------------------
    \1\ See the July 23 and November 12, 2014 Indian Affairs Committee 
hearings.

---------------------------------------------------------------------------
    17. Selection:

    (a) Do you know why you were selected for the position to which you 
have been nominated by the President?
    Through my work at the NIGC and the Department of the Interior, I 
have a proven track record of working with federal partners, tribal 
leadership, and other relevant stakeholders to carry out the agency's 
mission and meet relevant goals. My ability to do so has been bolstered 
by my qualifications and professional experiences, discussed below.

    (b) What in your background or employment experience do you believe 
affirmatively qualifies you for this particular appointment?
    I have served in a leadership role at the NIGC since September 4, 
2013, much of that time spent as Acting Chairman of the agency. I have 
developed working relationships with agency personnel, having made a 
point to meet with regional staff at every opportunity. Working in this 
capacity, I have gained important experience and have become familiar 
with the day-to-day workings of the agency and the policy issues before 
it. I believe that this proactive, positive approach has contributed to 
improved results in a recent employee Viewpoint Survey (2014) for the 
period during my tenure as Acting Chairman, when compared to the 
previous year. Finally, through the Commission's outreach at 
consultations, tribal leadership meetings, and industry functions, I 
have expanded on my relationships with industry stakeholders to build 
on the agency's goodwill and collaborative relationships.
    In addition, my extensive professional experience has proven to be 
directly relevant and helpful during my tenure with the agency. My 
lengthy service as an attorney and teacher in the field of Indian law 
and gaming matters has given me a solid understanding of the 
Commission's legal and regulatory issues. My judicial experience has 
given me a thoughtful, measured, approach to issue resolution with an 
eye toward long-term impacts. My policy background from service at DOI 
and a number of community organizations has given me a full picture of 
how gaming and gaming decisions impact federal Indian policy and tribal 
nation-building on a national scale. Finally, my volunteer service and 
my lifetime service to underrepresented communities help me appreciate 
how prudent economic development efforts positively impact real lives. 
All of these experiences have given me a deep respect for efforts 
tribes engage in to improve their communities and an appreciation for 
the role that NIGC plays in protecting a critical avenue for tribal 
economic development through sound regulation.
    If confirmed, I will continue to support efficient and orderly 
operations at the NIGC, and will ensure that our agency 
responsibilities are fulfilled in the smoothest manner possible.
                   b. future employment relationships
    1. Will you sever all connections with your present employers, 
business firms, business associations, or business organizations if you 
are confirmed by the Senate? N/A (My current employer is the National 
Indian Gaming Commission.)

    2. Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, please explain: No.

    3. Do you have any plans, commitments, or agreements after 
completing government service to resume employment, affiliation, or 
practice with your previous employer, business firm, association, or 
organization? No.

    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.

    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes.

                   c. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers: None.

    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: None.

    3. Describe any business relationship, dealing, or financial 
transaction Which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated:
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of the Interior's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the Department's designated agency ethics official and that 
has been provided to this Committee. I am not aware of any other 
potential conflicts of interest.

    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy:
    In my capacity as Senior Counselor to the Assistant Secretary--
Indian Affairs at the Department of the Interior and in my role at the 
NIGC, I have participated in discussions of the implications of 
legislative and budgetary policies that could impact those agencies. I 
have at times carried out discussions with congressional committee 
staffs on such issues. I have not otherwise engaged in activities to 
influence the legislative process.

    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items: (Please provide a copy of any trust or other agreements.)
    As I noted in response to Question 3 above, I have consulted with 
the Office of Government Ethics and the Department of the Interior's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the Department's designated agency ethics official and that 
has been provided to this Committee. I am not aware of any other 
potential conflicts of interest.

    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.

                            d. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain:
    I have never been disciplined or cited for any breach of ethics by 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group. In a previous 
judicial position, I was the subject of a complaint to an internal 
administrative committee that was subsequently withdrawn.

    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than for a minor traffic offense? If so, please explain:
    In January of 2000, I was ticketed for and pleaded no contest to a 
charge of driving under the influence.

    3. Have you or any entity, partnership or other association, 
whether incorporated or unincorporated, of which you are or were an 
officer ever been involved as a party in an administrative agency 
proceeding or civil litigation? If so, please explain:
    In 2011, my wife and I were the prevailing party in a small claims 
case involving allegations of non-payment for our wedding photographs.
    In 1995 my family filed a civil suit for violation of civil rights, 
invasion of privacy, and tortious infliction of emotional distress. The 
matter was settled prior to trial.
    In 1995, I filed an injunction which was served against the ex-
husband of my then-girlfriend, who threatened us, and he filed, but did 
not serve, an injunction against me in retaliation. No formal 
prosecution resulted from these actions.

    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain:
    Yes, see answer to Question 2, above.

    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination:
    I offer the following additional information to the Committee:

  <bullet> I have always enjoyed games of strategy; in addition to 
        winning and placing in various chess tournaments, I achieved a 
        United States Chess Federation title of expert while in high 
        school. I have played card games, including poker, and have won 
        poker tournaments in the past. Since working at the NIGC, while 
        I have played on one occasion at a non-tribal casino, I have 
        not, and would not, play at casinos regulated by the NIGC. I 
        have always committed myself to the highest ethical standards 
        and will continue to do so during my tenure at the agency. In 
        this spirit of this commitment, I will forego such activity at 
        any casino during my remaining tenure on the Commission.

  <bullet> Gaming has had a monumental impact on tribes that have been 
        able to benefit from it, and I appreciate the importance of 
        sound regulation in the industry. If confirmed, I will do all 
        that I can to collaborate with tribes and industry stakeholders 
        to ensure that the NIGC fulfills its statutory 
        responsibilities.

                     e. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.

    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.

    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.

    4. Please explain how if confirmed, you will review regulations 
issued by your department/agency, and work closely with Congress, to 
ensure that such regulations comply with the spirit of the laws passed 
by Congress:
    The NIGC's strategic plan requires it to engage in ongoing 
regulatory review. Given that the gaming industry is driven by ever-
changing technology and market dynamics, the agency actively consults 
with tribes and works with stakeholders to monitor its regulations. I 
look forward to a continuing dialogue with Congress regarding industry 
regulation, and I intend to continue to work with our Office of General 
Counsel and relevant federal partners, such as DOJ, to make sure our 
regulations comply with the law.

    5. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                  f. general qualifications and views
    1. How does your previous professional experiences and education 
qualify you for the position for which you have been nominated?
    As discussed in response to Question A17, I believe my professional 
experiences and education have provided me with a strong foundation for 
service as Chairman of the NIGC. My service as Acting Chairman, an 
Indian law practitioner and teacher, an appellate and trial court 
judge, a senior counselor on numerous policy issues, and a community 
volunteer all help me understand how gaming and the NIGC fit into 
broader nation-building and self-determination efforts in which tribes 
engage. Further, my work with federal, tribal, and state governments 
has provided me with a great respect for collaboration and cooperation 
among jurisdictions to achieve outcomes of mutual benefit. Finally, 
having worked in a number of public trust positions as well as the 
private sector--with a large law firm and my own firm--I appreciate the 
importance of best practices and fiscal stewardship in management of a 
government agency. Together, the above experiences provide me with a 
helpful context for the regulatory and administrative work the 
Commission performs, and I would be honored to continue to use my 
background to serve the agency.

    2. Why do you wish to serve in the position for which you have been 
nominated?
    As an extension of my family's longstanding service to Indian 
country and the community as a whole--my father is a retired political 
science professor and my late mother was a lifelong volunteer on behalf 
of community organizations and projects--I am a staunch believer in 
public service.
    Further, it is a reality that gaming has had a profound impact for 
those communities that have benefited from it. I have seen this 
firsthand in my tribe and tribes in which I have worked. Before law 
school, from 1993-1996, I worked as an educator (a culture and 
enrichment coordinator) for an Arizona tribe whose gaming operation was 
in the early stages of flourishing. I was an observer to how that 
community used its gaming resources to invest in infrastructure, 
community health programs, educational services, and cultural 
preservation efforts. Similarly, I saw how my tribe and neighboring 
tribes in southeastern Oklahoma began using gaming revenue to transform 
opportunities for subsequent generations.
    How a given tribe uses gaming and gaming revenue to pursue broader 
economic development and nation-building as a whole will depend on the 
needs and vision of that community. Respecting tribal sovereignty is a 
fundamental value for me. I believe the NIGC, in cooperation with 
tribes, tribal regulators, federal partners, and states, plays a 
critical role in protecting the gaming industry through sound 
regulation and observance of IGRA's mandates. I welcome the opportunity 
to do what I can to ensure the NIGC continues to perform that role with 
diligence, professionalism, and respect.

    3. What goals have you established for your first two years in this 
position, if confirmed?
    As gaming is a technology-driven industry, a priority of the agency 
must be allocating sufficient attention and resources to ensure that 
its infrastructure, staffing, regulations, and services (i.e., training 
and technical assistance) incorporate relevant and appropriate 
technology. I am proud that I have already taken steps toward this goal 
as the Commission recently launched a series of consultations intended 
to seek tribal input on how the agency may better use emerging 
technologies to provide outreach and services to tribes. Similarly, I 
am also proud that the NIGC used its recent DC headquarters move as an 
opportunity to update its IT and AV infrastructure. Maintaining up-to-
date IT capacity as well as expanding our AV training and technical 
assistance capabilities to serve remote communities will be a continued 
priority for me. Further, I look forward to helping monitor our 
regulations to ensure that they consistently reflect the goals of IGRA 
in light of technological and market-driven changes in the industry.

    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills?
    Through my judicial service, client representation, DOI service, 
cultural and familial ties, and living and studying in various locales, 
I am familiar with gaming issues and other policy matters facing tribes 
in most regions of the country. Despite having been born in Florida, my 
exposure to issues facing tribes in the Southeastern United States has 
been somewhat limited. I intend to work with appropriate tribal 
representatives and stakeholders in that region to expand my knowledge 
of area-specific issues. Further, I intend to build on my management 
skills and knowledge of the ever-changing gaming industry through 
continued dialogue and trainings with relevant experts. An efficiently-
managed regulatory agency necessarily relies on a skilled staff with a 
diverse set of expertise--i.e., legal, technological, operational, etc. 
Although it is impossible for any agency official, including an agency 
head, to be an expert in all things, good leadership requires an 
understanding of how various skillsets contribute to achieving an 
agency's goals and working to ensure that all agency officials work in 
unison toward those goals. From my time on the Commission, bolstered by 
my experience prior to joining the Commission, I have a solid 
understanding of the importance and relevance of the various NIGC 
officials' roles. I will continue to rely on available in-house 
expertise as appropriate, support our specialized staff as much as 
possible, and enhance our expertise as guided by continued consultation 
and operational review.

    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when society's problems 
should be left to the private sector, and what standards should be used 
to determine when a government program is no longer necessary:
    Overall, I believe the guiding principle of the role of government 
should be balance. In most matters, an ideal balance between oversight 
and private action is one that at once ensures fundamental fairness and 
honest dealing while not creating unnecessary impediments to private 
activity. As applied to the NIGC, the agency's ACE initiative seeks to 
strike that balance. Through assistance in the form of training and 
technical assistance, the agency seeks to work with tribes and 
regulators to ensure compliance with IGRA mandates and NIGC 
regulations. The idea is that through earnest effort on the front end, 
IGRA violations will naturally decline. The NIGC takes its oversight 
role extremely seriously, but sees significant benefit and efficiency 
in working in a collaborative manner to address issues before they 
become serious problems. Similarly, our regulations aim to implement 
IGRA in a manner consistent with the statute without creating 
unnecessary or arbitrary impediments in the industry.

    6. Describe the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated:
    As stated in all agency materials:

         The Commission's primary mission is to work within the 
        framework created by the Indian Gaming Regulatory Act (IGRA) 
        for the regulation of gaming activities conducted by tribes on 
        Indian lands to fully realize IGRA's goals: (1) promoting 
        tribal economic development, self-sufficiency and strong tribal 
        governments; (2) maintaining the integrity of the Indian gaming 
        industry; and (3) ensuring that tribes are the primary 
        beneficiaries of their gaming activities.
         To achieve these goals, the Commission is to adhere to the 
        principles of good government, including transparency and 
        agency accountability; to promote fiscal responsibility; to 
        operate with consistency and clarity to ensure fairness in the 
        administration of IGRA; and to respect the capabilities and 
        responsibilities of each sovereign tribal nation in order to 
        fully promote tribal economic development, self-sufficiency and 
        strong tribal governments.

    I intend to continue the gains made in recent years in outreach to 
tribes and regulators through our agency-wide commitment to the ACE 
initiative. Standing for ``Assistance'', ``Compliance'', and, when 
necessary, ``Enforcement'', the agency seeks to fulfill its oversight 
responsibilities while doing what it can to assist tribal gaming 
operations achieve compliance. I believe this initiative is a major 
achievement for the Administration and has led to considerable positive 
outreach with tribes, as well as many states. I look forward to 
continuing the positive trajectory of the agency in this regard.

    7. What do you believe to be the top three challenges facing the 
department/agency and why? I believe the top three challenges facing 
NIGC all relate to staving ahead of the technological curve. They are:

         Creating and maintaining up-to-date infrastructure.
         Retaining and recruiting skilled experts.
         Maintaining current regulations in a technological industry.

    Each of these challenges stem from the reality that gaming is 
driven by the market, and the gaming market is constantly developing 
new technologies for the gaming consumer. The Indian gaming industry is 
no stranger to this dynamic as tribal gaming is responsible for many of 
the technological improvements in the international gaming industry. 
However, the ever-changing face of gaming presents logistical 
challenges. As an agency, the NIGC must do what it can to ensure that 
in-house expertise is capable of serving all agency needs, including 
internal IT and information management, ensuring adequate protection in 
information-sharing with gaming facilities and other agencies, 
providing meaningful training and technical assistance, and ensuring 
that we can sufficiently perform our auditing and enforcement 
functions. Attorneys and operational professionals who are capable of 
performing these functions have many employment options. The NIGC has 
been committed to doing what it can to recruit and retain leaders in 
these fields. Similarly, its internal infrastructure and regulations 
need to be kept upto-date at all times. Ensuring sufficient staffing 
who understand these issues will be fundamental to these efforts. I 
look forward to addressing these challenges, if I am confirmed.

    8. In reference to question number six, what factors in your 
opinion have kept the department/agency from achieving its missions 
over the past several years?
    Overall, I believe the NIGC has done well in fulfilling its mission 
over the last several years, and I am committed to building upon the 
agency's positive efforts, if confirmed.

    9. Who are the stakeholders in the work of this department/agency?
    As stated above, IGRA's express goals are: (1) promoting tribal 
economic development, selfsufficiency and strong tribal governments; 
(2) maintaining the integrity of the Indian gaming industry; and (3) 
ensuring that tribes are the primary beneficiaries of their gaming 
activities.
    Thus, under IGRA, tribes and tribal regulators are primary 
stakeholders in the NIGC's work. States also play an important role in 
regulation of class III gaming. The Department of the Interior, 
especially DOI-Indian Affairs has a large role in numerous gaming 
matters, so maintaining good relationships with DOI is beneficial. 
Other federal partners, such as DOJ and the FBI work closely with the 
NIGC. Finally, industry operational experts play an important role in 
Indian gaming, and the agency does make an effort to be aware of their 
perspectives.

    10. What is the proper relationship between the position to which 
you have been nominated, and the stakeholders identified in question 
number nine?
    The appropriate relationship is one of collaboration, with 
appropriate boundaries.

    11. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices.
    a) What do you believe are your responsibilities, if confirmed, to 
ensure that your department/agency has proper management and accounting 
controls?
    Given that adherence to the principles of good government is key to 
achieving the NIGC's mission, proper management and accounting controls 
by the agency are very important. If confirmed, my responsibilities 
will include working with NIGC staff to ensure that such systems are in 
place so that the agency can effectively perform its auditing and 
enforcement functions in a transparent and accountable way and in 
accordance with NIGC's statutory responsibilities. As a federal agency, 
it must be held accountable for compliance with all applicable laws.

    b) What experience do you have in managing a large organization?
    As mentioned in response to an earlier question, I have enjoyed 
serving in a leadership capacity at the NIGC since September 4, 2013. 
Much of that time was spent as Acting Chairman. Further, as Chief 
Justice of the Muscogee (Creek) Nation, I was not only the 
administrative head of the judiciary of the fourth largest tribe in the 
country, I oversaw the Supreme Court's management of the tribe's large 
bar association. Finally, I have experience working in numerous types 
of administrative settings in the private sector as well as within 
federal, state, and tribal settings.

    12. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals.
    a) What benefits, if any, do you see in identifying performance 
goals and reporting on progress in achieving those goals?
    I see enormous benefit to having clearly-stated goals from both a 
management and a policy perspective. Such goals help set priorities and 
motivate all organizational members to work in a collaborative fashion. 
Engaging relevant stakeholder in setting goals also produces buy-in and 
improves cooperation after the goals are set. I am happy to work with 
the appropriate officials to ensure ongoing compliance.

    b) What steps should Congress consider taking when a department/
agency fails to achieve its performance goals?
    Should these steps include the elimination, privatization, 
downsizing, or consolidation of departments and/or programs? There are 
many reasons why an agency may fail to achieve performance goals. It is 
important that the cause of any failure be identified so that agency 
personnel and Congress can better understand the issues and develop 
appropriate responses. If confirmed I would ensure that NIGC strives to 
meet its performance goals, and I would work with the Committee to 
ensure the agency had necessary authority to effectively carry out its 
mission.

    c) What performance goals do you believe should be applicable to 
your personal performance, if confirmed?
    Last year the NIGC published its Strategic Plan for the next five 
fiscal years. That plan contains 5 strategic goals for the Commission 
that identify key areas for performance improvement and reflect the 
direction in which the NIGC wants to move in order to realize its 
mission. These goals include:

         1. Continue the Assistance, Compliance and Enforcement 
        initiative;
         2. Improve technical assistance and training for stakeholders;
         3. Improve and update the NIGC's regulations;
         4. Improve consultation, communication and relationship 
        building with tribal regulatory authorities, and federal and 
        state agencies; and
         5. Increase efficiency, transparency and accountability.

    If confirmed as Chairman, I believe it is appropriate that I be 
held accountable for the NIGC's efforts to meet these performance 
goals.

    13. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you?
    I am a strong believer in a team-based approach. No employees have 
brought complaints against me. I believe that my approach has 
contributed to improved results in a recent employee Viewpoint Survey 
(2014) for the period during my tenure as Acting Chairman, when 
compared to the previous year.

    14. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please explain:
    As noted in the response to Question C4, in my capacity as Senior 
Counselor to the Assistant Secretary--Indian Affairs at the Department 
of the Interior and in my role at the NIGC I have at times carried out 
discussions with congressional committee staff on policy and 
legislative issues. I believe that through these discussions, I have 
developed a positive, but limited working relationship with 
congressional staff, including staff for this Committee.

    15. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency:
    The NIGC works with the DOI Inspector General's Office on matters 
under investigation by that office. I intend to support an open and 
responsive relationship with the DOI Inspector General.

    16. In the areas under the department/agency's jurisdiction to 
which you have been nominated, what legislative action(s) should 
Congress consider as priorities?
    Please state your personal views: One area where NIGC strives to 
adapt to continue to play a relevant role is in meeting the demands of 
constant technological change. Currently, several different bills on 
Internet gaming have been introduced by members of Congress. Some of 
these bills address the NIGC's role and some do not. The NIGC has heard 
a variety of viewpoints on the matter from various tribes and 
stakeholders, and I believe it is important to continue to hear from 
those entities in the future.

    17. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending in an open 
manner through a set of fair and objective established criteria? If 
yes, please explain what steps you intend to take and a timeframe for 
their implementation. If not, please explain why.
    Yes. I fully support fiscal transparency. As the NIGC is funded by 
fees paid by tribes engaged in Indian gaming, I am personally committed 
to being a good steward of such fees. I-am committed to working with my 
colleagues at the agency to regularly review our budgeting process with 
an eye toward transparency and compliance with applicable law.
                           g. financial data
    Information not released to the public.

    The Chairman. Thank you very much.
    Thank you for your testimony. Hello to your father, who is 
watching on the internet. We will go first to Senator Tester.
    Senator Tester. Thank you, Mr. Chairman.
    As your testimony pointed out, you have been in this 
position for about a year and a half on an acting basis. Can 
you describe the impacts of having not been confirmed and being 
in an acting position to the commission?
    Mr. Chaudhuri. Thank you, Vice Chairman.
    First and foremost, we have had many successes. By and 
large, the agency has been operating to the best of its 
abilities in a smooth manner for the last year and a half. To 
that, I credit the incredible commitment and skill of the 
excellent team that we have at the National Indian Gaming 
Commission. Many of them are here today, our senior leadership 
is here, of their own accord: Our chief of staff and our 
general counsel, as well as my fellow commissioner, Dan Little. 
The commitment that all of them have is real and it goes to the 
core of their belief systems.
    But I must say that there is a need to have a confirmed 
chairman. IGRA contemplates a confirmed chairman, one nominated 
by the President and confirmed by the Senate. It's essentially 
a constitutional officer that needs to be running an agency of 
the NIGC's importance.
    In addition to that, IGRA contemplates a full commission. 
We have done what we could despite having two-thirds of a 
commission in place. But we need a confirmed chairman for 
stability and for the persuasive authority that a 
constitutional officer provides in the chair position.
    Senator Tester. Could you give me an idea of how many 
people work under you?
    Mr. Chaudhuri. Numbers-wise, we are a small agency. So we 
have 100 employees at this time, approximately 100. I think we 
just added one very recently. But we work with and leverage 
relationships with well over 5,000, I think over 5,400, tribal 
regulators in the field. That is why it is so important for us 
to have positive collaborative relationships with regulatory 
partners.
    Senator Tester. Can you tell me where your money comes from 
to operate your agency?
    Mr. Chaudhuri. Thank you, Vice Chairman. We are not an 
appropriated agency. Our funds come directly from fees that 
tribes submit.
    Senator Tester. Okay. So you are probably not going to be 
able to answer this question, so I am going to ask it anyway.
    There is a tribe that the NIGC issued a notice of violation 
to back in 2009, long before you came on board. That tribe has 
appealed that notice but has never received a final decision on 
that appeal from NIGC. I understand there are reasons, but it 
has been over five years.
    Generally speaking, do you have a statutory or regulatory 
time frame in which NIGC is supposed to make a decision when 
notices get appealed?
    Mr. Chaudhuri. We do. And it is a priority for us to 
process all appeals as quickly as possible.
    Senator Tester. How long is that time frame?
    Mr. Chaudhuri. Under our regulations, our time frame for 
acting on appeals is currently 90 days. The appeal in question 
I think you are referencing was brought well before our new 
regulations were in place. With that said, there have been a 
number of intervening factors, pleadings and withdrawals of 
pleadings in that case at various times. That case is currently 
in litigation. We frankly were poised to issue a decision when 
litigation was filed.
    We remain poised to issue a decision and very well could 
make one soon. But at the current moment, we are addressing 
where things stand in the litigation.
    Senator Tester. So I don't want to put words in your mouth. 
Are you saying that there will or will not be a decision while 
litigation is going on?
    Mr. Chaudhuri. There very well could be. But the last thing 
we want to do is foster a perception that we are trying to 
influence the litigation. We are very close to being able to 
make a decision. But we will do it in a thorough manner based 
on an appropriate time frame that is specific to the appeal 
itself.
    Senator Tester. And in regard to this, as far as Indian 
appeals goes, I appreciate the fact that you think they should 
be done as quickly as possible. I feel the same way you do. I 
do think five years is a bit much, to be honest with you. So 
anything you can do to get that squared away would be good.
    My last question is this, when you talk to some and they 
will tell you that Indian gaming is on the decline and that 
they have maxed themselves out, that they have more casinos out 
there than what can be supported by the population. I just want 
to get your opinion, this will have no impact on your 
confirmation, but just your opinion. Do you think we have the 
right number of casinos? Do you think we should be encouraging 
more casinos to be built? Or do you think that in fact, Indian 
gaming quite possibly is on the decline.
    Mr. Chaudhuri. Thank you, Mr. Vice Chairman. I will give 
you two answers, which are basically the same answer. The first 
answer is that while I am wearing my hat as a regulator and the 
other answer is my personal opinion. As a regulator, our focus 
is solely on the implementation of IGRA. Expansion or 
contraction of the industry is not our concern.
    On a personal basis, though, I recognize that sound 
regulation helps create an environment for successful business 
to occur. So I believe ultimately sound regulation leads to 
strengthening the agency.
    Now, gross gaming revenue is an aggregate number that lumps 
in all the numbers from all facilities across the Country. We 
all know different tribes are differently situated. Some 
operations only pay payroll and only pay for the jobs that are 
created by the employees and the folks that work for the 
facility. Those operations are profoundly important to the 
communities that they serve.
    So I am not so much fixated on the actual size of the 
industry. As a regulator, I am fixated on doing whatever I can 
to assist all operators equally so that everybody has a fair 
shot at regulating their operations in a fair manner.
    Senator Tester. Thank you, Jonodev. I will just go back 
where we started, Mr. Chairman, I am looking forward to getting 
this fellow confirmed as quickly as possible. Thank you, Mr. 
Chairman.
    The Chairman. Thank you, Mr. Vice Chairman.
    Senator Franken?

                 STATEMENT OF HON. AL FRANKEN, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Franken. Thank you, Mr. Chaudhuri, for being back 
again. Hamati, you are doing great, you are doing really well. 
I am proud of you. And your dad is proud of you.
    Mr. Chaudhuri. Do you have any snacks?
    [Laughter.]
    Senator Franken. Exactly.
    Mr. Chaudhuri, I have heard some frustration from tribes in 
my State about the amount of time it takes to get NIGC to 
review applications for gaming ventures. I have also heard that 
there has been some improvement recently. So I want to thank 
you for that. This certainly isn't an issue that is confined to 
the NIGC among Federal agencies. But some of these applications 
are very time-sensitive and tribes need your go-ahead to 
capitalize on economic development opportunities.
    Are delays like that due to a lack of the necessary 
resources to do the job? Are there internal processes that you 
can improve to speed things up?
    Mr. Chaudhuri. Thank you, Senator. If I may, and I mean no 
disrespect by this, refer to you by the nickname that your two-
year old grandson refers to you as, from what I understand, 
which is Senator.
    [Laughter.]
    Senator Franken. Yes, correct.
    Mr. Chaudhuri. I read that somewhere.
    Senator Franken. I see it as more of an homage.
    [Laughter.]
    Mr. Chaudhuri. Okay. Thank you.
    We are very concerned about maintaining positive 
relationships with the regulating community. And timeliness is 
part of that. We have an emphasis on being responsive at the 
agency, and being timely in our responses. That is why in 
reference to the last question, timeliness of appeals concerns 
me.
    Internally, we are looking at all of our processes 
collectively to make sure that internally we have benchmarks 
associated with the processing of any request, be it a facility 
license notification, be it a request for a declination letter, 
be it any type of ordinance that is submitted. We want there to 
be a uniform approach that imposes some accountability to make 
sure that we are responsive in terms of timelines.
    If there have been benefits over the last month, regarding 
shortening of time periods, I would credit our efforts to look 
at all of our processes and have a clear understanding of where 
our own internal benchmarks are. But no matter how good we do 
things, I always want to make sure we do our best to do them 
better.
    Senator Franken. Last time you were here, we discussed the 
importance of technology. You brought it up again, you are 
developing a new office for that. I really am curious, just 
what are the new technologies? Where are they being developed? 
Is this developing employment opportunities among tribes, and 
members of tribes? I am curious as to that whole look at the 
overarching thing of this kind of technology. I understand 
gaming is an industry. So the same people who are doing 
technology, I imagine, in Las Vegas, are doing it in Indian 
country. But how does it work and what are we talking about?
    Mr. Chaudhuri. Thank you, Senator. That is a huge question, 
because technology is a widely encompassing concept. Technology 
touches everything we do at the NIGC. We recognize that staying 
abreast of technology is important when it comes to the 
training and technical assistance we provide. We have to 
provide up to date training and technical assistance. Up to 
date technology is important in terms of our oversight 
responsibilities, in terms of being able to process audit 
materials and financial statements that come through, with an 
eye towards how the submissions, what they mean given the 
various platforms that they were submitted in.
    Technology affects our ongoing regulatory responsibilities. 
We have a responsibility to make sure that we provide up to 
date technical standards when we are requiring compliance in 
the industry. And then finally, internally, as an agency, we 
have to make sure that our operations are technologically up to 
date.
    In recognition of the broad, sweeping role that technology 
and developments in the Indian gaming industry present to us as 
an agency, we've recently elevated the role of technology 
within NIGC. We are creating a division of technology to be led 
by a director of technology whose voice will contribute to 
senior leadership's discussions regarding creating a unified, 
consistent philosophy and approach to technology. Part of that, 
I recognize, I know my own limitations. I am personally not a 
technical expert. But I hope I have enough sense to recognize 
the need to elevate the role of technology in the agency and 
support the technical experts that we do have.
    I don't know if I answered your question, Senator.
    Senator Franken. You did. Basically what I am hearing, and 
my time is way over, is that this is technology that any 
business, of course, would be using. But I was interested in 
the gaming technology in particular. But I am way past my time 
and Hamati is looking at me like, don't take any more time.
    [Laughter.]
    The Chairman. And he is not the only one.
    [Laughter.]
    The Chairman. Senator Udall?

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Mr. Chairman.
    You have very well-behaved kids there. I am really 
impressed. They are doing well. They are kind of separated from 
each other.
    Mr. Chaudhuri. That is the secret.
    Senator Udall. That is a good sign, too, mom is in between.
    Well, I wanted to ask about your consultation and technical 
assistance to tribes. I think it is one of the things that 
under IGRA and ensuring IGRA compliance that is really 
important that you do. How do you plan to accomplish this 
moving forward? Do you believe you have adequate resources, 
like technology and staffing, to ensure that the Commission 
stays on top of the new regulatory issues? How do you provide 
this technical assistance? Are people there working on the 
ground with the tribes? Do you see any area of improving in 
providing consultation and technical assistance to prevent 
violations beforehand, so you get out in front of problems?
    Mr. Chaudhuri. Thank you, Senator. The ability to provide 
up to date technological information is dependent on your 
capacity as an agency. So your question is right on target and 
very much appreciated.
    Currently, given our current regulatory responsibilities 
under IGRA, I do believe we have the resources and the tools 
needed to not just perform our oversight roles, but perform 
sufficient technical assistance. In terms of consultation, any 
moves that we make as an agency, any significant moves we make, 
we recognize the obligation and the benefit of doing so hand-
in-hand with voices from the Indian gaming community, 
specifically tribes who are the primary regulators of Indian 
gaming.
    Despite the lack of a confirmed chair over the last year 
and a half, we have continued our path toward active 
consultation. We held some meaningful consultations last year 
regarding technology as well as some aspects of management 
agreement approvals. I am personally of the mindset that you 
don't want to impose another round of consultations without 
doing active work on previous ones. Those last consultations 
helped lead us to a decision to create a technology division 
within the agency. Further, those consultations have led us to 
some specific proposals regarding updating our NEPA handbook at 
the agency.
    But we anticipate ongoing consultations with tribes 
regarding technology, as well as, bringing folks in house. We 
already have folks in house who can do this. But maintaining 
the right folks in house, who can continue to implement a 
cohesive technology vision within Indian Country, within the 
Indian gaming industry.
    Senator Udall. Do you have the capability to send people 
out to a tribe and put people on the ground? Or is more of 
this, as you talked about, through conferencing and bringing 
people to Washington and that kind of thing?
    Mr. Chaudhuri. Thank you, Senator. Both. And we actively 
send people out on a regular basis. We have a training manager 
within our agency who works with our compliance staff, with our 
general counsel's office and other relevant members of our team 
to perform subject matter specific trainings, either in terms 
of general trainings or on a tribe-specific basis.
    So we provide free of cost to a given regulatory body, free 
of cost, we provide targeted trainings in addition to general 
trainings. If I could just mention, we are on pace this year to 
provide more trainings to more people in Indian country than we 
ever have before. In 2014, we trained more people at more 
trainings than ever before. I have the numbers.
    Senator Udall. And please submit the numbers to us, if they 
are in your testimony they will already be in. Do you have them 
there?
    Mr. Chaudhuri. Yes. For 2014, we trained 2,830 regulatory 
partners, at 838 compliance reviews and trainings. In 2015, 
this is only March 11th, we have already had 91 training 
events, training 628 participants. Thank you for the 
opportunity to mention that. We are very proud of that, as an 
agency.
    Senator Udall. And I assume you are trying to get out in 
front of violations and be preventive.
    Mr. Chaudhuri. Absolutely. That is our whole philosophy. 
You work as hard as you can on the front end to avoid 
violations; enforcement always being an option and always 
available. But not solely putting yourself in an enforcement 
box, but putting the work in and doing the job to make sure 
that you are working with regulators on a day to day basis to 
avoid compliance issues.
    Senator Udall. Thank you very much.
    Mr. Chaudhuri. Thank you, Senator.
    The Chairman. Senator Heitkamp?

               STATEMENT OF HON. HEIDI HEITKAMP, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Heitkamp. Thank you, Mr. Chairman.
    Welcome and congratulations on your nomination. I am going 
to come at this a little differently. I think it is really 
important, what you said, that the first line of defense are 
the tribes themselves. I think way too often we think that this 
regulation is imposed on the tribes. Almost every tribe in 
North Dakota has kind of a regulatory arm to that that oversees 
the operation of tribal gaming.
    So we have tribal regulation, we have State regulation 
under the compacts, and we have Federal regulation. Obviously I 
am concerned about harmonization of all those regulations, so 
we don't see a huge kind of regulatory burden, such as we have 
to do this to satisfy this guy, this to satisfy her and this to 
satisfy those guys at the Indian Gaming Regulatory Commission.
    So what I am going to ask is two things. Number one, how do 
you see harmonization of all those regulatory bodies? And who 
is responsible for making sure that there isn't inconsistent 
regulation? Then on the other side, looking at all of these, 
are there some places where you have seen in your experience 
best practices that a State imposed a technological kind of 
solution that Senator Franken was talking about, or whether it 
has been an opportunity to learn from other regulators of 
Indian gaming?
    Mr. Chaudhuri. Thank you, Senator. That shows excellent 
insight into our daily work.
    Senator Heitkamp. I used to do this for a living.
    Mr. Chaudhuri. Thank you so much. So IGRA does create a 
multi-tiered system of regulation. Indian gaming is the most 
regulated gaming industry in the world. We have, as IGRA points 
out, tribes as the primary beneficiaries of Indian gaming, as 
you referenced, the front line in Indian gaming. You have the 
Federal Government. But based on compacts you have States in 
there as well.
    In addition to being good policy, it just makes sense from 
a practical fiscal perspective to work with your regulatory 
partners. So we recognize, if you have 5,400 regulatory 
partners in the field, who are the primary regulators of Indian 
gaming, why wouldn't you foster positive relationships with 
them as possible? You don't want either side to be playing hide 
the ball. So avoiding overlap or redundancy is very important 
to us. I think you do that through communication, through 
meaningful consultation, through not creating redundant 
regulations. We try to streamline both things internally 
through our operations and externally through our regulations 
to ensure maximum cooperation with tribes.
    But let me just say one thing just very briefly, Senator. 
The communities in your State, the tribal nations in your State 
are exactly the type of communities that I want to work harder 
to serve. Thos are rural communities, many of them are smaller 
tribal gaming operations who I think can benefit the most from 
our training and technical assistance.
    So back to the previous question about what types of 
trainings we do. Part of the reason we are ramping up our 
technology is to provide----
    Senator Heitkamp. We are kind of running out of time. But I 
want to refocus you on what State regulations have you looked 
at and said, those are really smart, I wonder if we would think 
about deploying those kinds of State techniques in a broader 
sense to the national regulatory kind of scheme.
    Mr. Chaudhuri. Well, certainly States have been active 
voices in many of the regulatory tweaks that we have already 
made, through comments, written comments or various 
submissions. But as part of our day-to-day work, we regularly 
look at State structures. We play very little role, we play no 
role in the development of compacts. Our focus on regulation 
takes place after a compact is issued.
    That said, some of the mechanisms that are often included 
in compacts have been very helpful to us as we have refined our 
own regulations. I don't know if that helps.
    Senator Heitkamp. That is fine. Well, we will have plenty 
of time to talk about this.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Heitkamp.
    Just a couple quick questions. The Indian Gaming Regulatory 
Act represents a delicate balance, we have talked about it in 
my office, of Federal, tribal and State interests in regulating 
gaming. Provided limited opportunities for off-reservation 
gaming, which is something we spent time on.
    Pursuant to that Act, the National Indian Gaming Commission 
has significant regulatory roles that you would have, including 
issuing Indian lands opinions, opinions regarding Indian lands. 
Expansive interpretations of Indian lands has contributed, I 
believe, in part, to inter-tribal as well as inter-governmental 
disputes over gaming and trust land acquisitions.
    So could you explain how the Commission balances those 
interests for determining Indian lands for off-reservation 
gaming?
    Mr. Chaudhuri. Thank you, Chairman. Off-reservation gaming, 
we certainly recognize how important off-reservation gaming 
dialogue has been, not just to Federal Indian policy but to 
Federal policy in general. That said, our role is largely 
limited as an agency with respect to off-reservation gaming. 
Off-reservation gaming largely involves the process in which 
land is placed into trust. And that land into trust process is 
a Department of the Interior function rather than an NIGC 
function.
    We do play a much more limited role in terms of determining 
whether or not, given the parcel, opining on whether or not a 
given parcel qualifies as Indian lands eligible for gaming. But 
when we do that, we are solely guided by the language of IGRA. 
We employ the language of IGRA. So I understand the importance 
of off-reservation gaming, but our role is very limited.
    The Chairman. You had spoken about the number of people 
that you have trained and all the activities, and we talked 
about that last time in your hearings and you and I have talked 
about that as well. According to the FBI, fiscal year 2016 in 
their budget request, that just came out in January of this 
year, they said they had 2,982 pending Indian Country 
investigations. A portion of those investigation sites 
included, I think, 400 Indian gaming facilities.
    The FBI further noted that limited internal and external 
oversight makes Indian Country an attractive, they say an 
attractive, potential target for financial crimes.
    Are you aware of and working with the FBI on any of the 
investigations occurring in the 400 Indian gaming facilities?
    Mr. Chaudhuri. Thank you, Chairman.
    Certainly we are aware of and appreciative of the role that 
the FBI serves in investigating criminal activities arising out 
of gaming operations in Indian country. As a civil regulatory 
agency, we don't have any criminal jurisdiction over criminal 
acts in Indian country. However, we do have the authority, as 
well as the responsibility, to refer to the FBI instances of 
criminal activities of which we become aware. And we do that on 
a regular basis.
    We become aware of such activities through a variety of 
means. More often than not, from reporting that the tribe 
provides, a given tribe provides.
    So when we make referrals, we refer information that we 
have to the FBI and the FBI chooses whether or not to conduct a 
formal investigation. Once an investigation takes place, our 
role is somewhat limited because information regarding an 
ongoing criminal investigation is not widely shared.
    The Chairman. The concern is that if something is an 
attractive, potential target for financial crimes, we would 
like to try to get to the point where we eliminate that being 
an attractive, potential target. So if confirmed, how will you 
work with the FBI to specifically improve the internal and 
external oversight, so Indian Country is no longer such an 
attractive target for criminal activity?
    Mr. Chaudhuri. Well, I think we work with them on both a 
regional and headquarters basis. But in terms of communication, 
we can always communicate more. So we are open and in the past 
there have been some regular calls that the agency would 
participate in, and we still participate in regular conference 
calls with the FBI, as well as DOJ and at times other relevant 
agencies.
    But I will say that there is, I think there are some 
accomplishments that come out of those same numbers. Whenever 
you have a $28 billion industry, folks are going to want some 
of that money. I think the real story is how few major, major 
poster kids there are for wide-scale theft. For that, I think 
you can thank the primary regulators of Indian gaming, 
primarily the tribes, but we do our part as well.
    The Chairman. Thank you.
    Do any other members have additional questions? Hearing no 
more questions, members may also submit follow-up written 
questions for the record. I would like to move this nomination 
as early as next week. So Mr. Chaudhuri, we may send you 
written questions this week. You will need a quick turnaround 
in response to any member's questions.
    I want to thank you all for your time, and for your 
testimony. The hearing is adjourned.
    [Whereupon, at 3:11 p.m., the hearing was adjourned.]
                            A P P E N D I X

Letter of Support from Robert Pinto, Sr., Tribal Chairman, Ewiiaapaayp 
                        Band of Kumeyaay Indians
    Dear Chairman Tester and Vice Chairman Barrasso:
    The Ewiiaapaayp Band of Kumeyaay Indians is a federally recognized 
Tribe and Ewiiaapaayp Indian Reservation of 5,470.15 acres in east San 
Diego County, California. The Ewiiaapaayp Band writes in support of 
President Obama's nomination of Mr. Jonodev Osceola Chaudhuri to be the 
chair of the National Indian Gaming Commission, the federal agency 
tasked with collaborating with tribes and states to regulate Indian 
gaming.
    As you are undoubtedly aware, Mr. Chaudhuri enjoys broad experience 
and particular success in tribal government, private practice in Indian 
law, federal government, and his recent service on the NIGC, currently 
as Vice Chair and Associate Commissioner and formerly as Acting 
Chairman.
    Our experience with Mr. Chaudhuri was primarily during his service 
as Senior Counsel to the Assistant Secretary for Indian Affairs at the 
Department of the Interior from 2012 to 2013. Mr. Chaudhuri 
successfully mediated the interests of the Ewiiaapaayp Band and the 
Fish & Wildlife Service regarding a wind energy conversion project 
located on the Ewiiaapaayp Indian Reservation that involved tribal 
trust responsibility and federal environmental regulations. Mr. 
Chaudhuri's expertise in federal Indian law and his mediation skills 
proved invaluable, and the Ewiiaapaayp Band honors Mr. Chaudhuri as a 
true advocate of collaboration with Indian tribal governments.
    Mr. Chaudhuri's professional background and personal experience, 
informed by the Ewiiaapaayp Band's direct experience with Mr. 
Chaudhuri, is the basis for our opinion that he is uniquely qualified 
for the position of NIGC Chair. Mr. Chaudhuri's credentials demonstrate 
an understanding of Indian country and federal and state interests and 
the ability to reconcile and balance those interests in a manner that 
is productive for all involved.
    The Ewiiaapaayp Band supports Mr. Chaudhuri as the nominee for NIGC 
Chair. The Ewiiaapaayp Band requests that our California Senators, and 
all other like-minded Senators, support Mr. Chaudhuri's confirmation.
    Thank you for your consideration of the Tribe's views.
                                 ______
                                 
  Letter of Support from Hon. Ty Vicenti, President, Jicarilla Apache 
                                 Nation
    Dear Chairman Tester:
    We are pleased that President Obama has nominated Jonodev Osceola 
Chaudhuri to serve as Chairman of the National Indian Gaming 
Commission, and we write in full support of his confirmation.
    The NIGC Chairmanship is a critical position for Indian country. 
The position requires a full understanding of the regulatory issues 
involved in Indian gaming, but it also requires an understanding of how 
Indian gaming fits into broader tribal self-determination efforts. Not 
only does Jonodev understand the gaming industry, but his personal and 
professional experience with his tribe and other tribal nations gives 
him an excellent perspective in carrying out the Commission's 
functions. That perspective is invaluable to forging necessary 
relationships with industry stakeholders, and it has served him and the 
agency well thus far.
    Jonodev's leadership since joining the Commission has helped the 
agency smoothly navigate a period of transition--both in Commission 
membership and agency location--while maintaining regulatory 
responsibilities and building upon collaborative relationships with 
tribes, federal partners, and states.
    Jonodev's commitment to service and his respect for tribal 
traditions and culture are genuine. These attributes, coupled with his 
solid professional background, make Jonodev an ideal person to lead the 
agency. We urge a swift confirmation of Jonodev's nomination to ensure 
continued stability in this key position.
                                 ______
                                 
 Letter of Support from Hon. Stacy Dixon, Tribal Chairman, Susanville 
                            Indian Rancheria
    Dear Chairman Tester and Vice Chairman Barrasso:
    The Susanville Indian Rancheria is a federally recognized Indian 
tribe in the State of California. On behalf of the Susanville Indian 
Rancheria, I write in support of President Obama's nomination of Mr. 
Jonodev Osceola Chaudhuri to be the chair of the National Indian Gaming 
Commission, the federal agency tasked with collaborating with tribes 
and states to regulate Indian gaming.
    As you are undoubtedly aware, Mr. Chaudhuri enjoys broad experience 
and particular success in tribal government, private practice in Indian 
law, Federal Government, and his recent service on the NIGC, currently 
as Vice Chair and Associate Commissioner and formerly as Acting 
Chairman.
    Mr. Chaudhuri's accomplishments during his service as Senior 
Counsel to the Assistant Secretary for Indian Affairs at the Department 
of the Interior from 2012 to 2013 speak directly for his confirmation. 
Mr. Chaudhuri proved to be an expert in federal Indian law and Federal 
Government regulation, and a true advocate of collaboration with Indian 
tribal governments.
    Mr. Chaudhuri's professional background and personal experience 
uniquely qualify him for the position of NIGC Chair. Mr. Chaudhuri's 
credentials demonstrate an understanding of Indian country, federal and 
state interests, and the ability to reconcile and balance those 
interests in a manner that is productive for all involved.
    The Susanville Indian Rancheria supports Mr. Chaudhuri as the 
nominee for NIGC Chair and requests that our California Senators, and 
all other like-minded Senators, support Mr. Chaudhuri's confirmation.
    Thank you for your consideration in this matter.
                                 ______
                                 
   Letter of Support from Hon. John L. Berrey, Chairman, Quapaw Tribe
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
  Letter of Support from Hon. Richard J. Peterson, President, Central 
             Council Tlingit Haida Indian Tribes of Alaska
    Dear Chairman Tester and Vice Chairman Barrasso:
    The Central Council Tlingit Haida Indian Tribes of Alaska (Central 
Council) is a federally recognized Indian tribal government with over 
29,000 tribal citizens worldwide. Central Council writes in support of 
President Obama's nomination of Mr. Jonodev Osceola Chaudhuri to be the 
chair of the National Indian Gaming Commission (NIGC), the federal 
agency tasked with collaborating with tribes and states to regulate 
Indian gaming.
    As you are undoubtedly aware, Mr. Chaudhuri enjoys broad experience 
and particular success in tribal government, private practice in Indian 
law, Federal Government, and his recent service on the NIGC, currently 
as Vice Chair and Associate Commissioner and formerly as Acting 
Chairman.
    Our experience with Mr. Chaudhuri is through our 1st Vice President 
who worked with Mr. Chaudhuri during his service as Senior Counsel to 
the Assistant Secretary for Indian Affairs at the Department of the 
Interior from 2012 to 2013. Mr. Chaudhuri proved he possessed a deep 
and insightful understanding of Indian law and federal statute and 
regulation, and, importantly, the ability to forge a collaboration 
between federal and tribal regulators that forged a common interest 
between parties otherwise at odds. His is a rare skill set that merits 
his continued service in a position of importance involving federal and 
tribal interests.
    Mr. Chaudhuri's professional background and personal experience, 
informed by the trust be has earned among tribal leaders such as our 
own, is the basis for our opinion that he is uniquely qualified for the 
position of NIGC Chair. Mr. Chaudhuri's credentials demonstrate an 
understanding of Indian country and federal and state interests and the 
ability to reconcile and balance those interests in a manner that is 
productive for all involved.
    Central Council supports Mr. Chaudhuri as the nominee for NIGC 
Chair. Central Council requests that our Alaska Senators, and all other 
like-minded Senators, support Mr. Chaudhuri's confirmation.
    Thank you for your consideration of the Tribe's views.
                                 ______
                                 
      Arizona Indian Gaming Association (AIGA) Support Resolution


                               
                                 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 
                                 
                                 
   Response to Written Questions Submitted by Hon. John Barrasso to 
                       Jonodev Osceola Chaudhuri
    You testified before the Committee on Indian Affairs' Oversight 
Hearing entitled ``Indian Gaming: The Next 25 Years'' held on July 23, 
2014, that to accomplish the Indian Gaming Regulatory Act's stated 
policy goals, the National Indian Gaming Commission (NIGC) continues to 
be proactive in several areas, including consultation, ongoing 
regulatory and operational review, training and technical assistance 
and agency accountability. You noted that successful regulation depends 
on a properly trained workforce.
    You further testified that the NIGC views training and technical 
assistance as a valuable component to the agency's mission. The agency 
views the Assistance, Compliance, and Enforcement initiative as a core 
of its success over the last few years. You stated that in 2013, the 
NIGC trained 2,751 participants in Indian Country on up to date 
regulations and best practices and in 2014, the agency trained 2,140 
participants. You finally noted that these numbers were a ``great 
metric''. However, these numbers do not reveal how well participants 
comprehended and retained any of the training nor provide a direct 
correlation between technical assistance and an improvement in 
compliance and accountability.

    Question 1. In what other ways has the NIGC documented or otherwise 
determined the effectiveness of its training, including measuring a 
participant's level of comprehension and implementation from these 
trainings?
    Answer. While raw numbers of training events and participants do 
provide important data on the breadth of the N1GC training and 
technical assistance program, I realize that solely tracking output is 
not enough. Therefore, we continue to develop metrics for tracking the 
efficacy of trainings. For instance, the NIGC training team is 
developing knowledge reviews which will assess the retention and 
implementation of training materials not only at the conclusion of 
training events but also months later. These reviews will allow us to 
continuously evaluate which lessons and training techniques are 
effective and which are not by monitoring whether tribal gaming 
regulators and gaming operation employees retain and use what they 
learn at our trainings.
    Training is probably the most critical component of the NIGC's ACE 
initiative, which is simply shorthand for the agency's emphasis on 
working with tribes and regulatory partners to minimize and mitigate 
compliance issues in the field. Although ACE is relatively new, we are 
already seeing some encouraging signs regarding its impact on industry 
compliance. For example, data gleaned from Agreed Upon Procedures 
reports (AUPs) shows a significant decrease in both critical and 
overall risk findings between pre-ACE reports from 2009 and those from 
2011-2013 after ACE implementation began. AUPs are prepared annually 
for each tribal gaming facility by independent auditors, and they 
measure compliance with a tribe's internal controls. We intend to track 
these reports, as well as other relevant information obtained in the 
agency's day-to-day work, to help inform and refine our trainings and 
operations.
    I am determined to do what I can to ensure that all NIGC functions 
are as effective as possible, and I am open to all practical means by 
which to improve and measure the effectiveness of our training program. 
Associate Commissioner Daniel Little and I have committed ourselves to 
regularly review the effectiveness of our training and technical 
assistance efforts and to make changes as appropriate.

    Question 2. How will you report to Congress on the effectiveness of 
the Assistance, Compliance, and Enforcement initiative?
    Answer. Transparency is essential to our efforts to effectively 
strengthen industry compliance with the Indian Gaming Regulatory Act 
through fair and practical approaches, and it is important to both our 
stakeholders and to Congress, which created the NIGC. In addition to 
being open and responsive to oversight hearings held by the Senate and 
House of Representatives, in order to better strengthen the 
communication between the NIGC and Congress, I have created and filled 
a Legislative and Intergovernmental Affairs Coordinator position. I 
believe that this position will enhance the Commission's dedication to 
transparency and will ensure that the NIGC is acting in a timely manner 
in its responses to Congressional questions and concerns.

    At the March 11, 2015 Committee Nomination Hearing to consider 
Jonodev Osceola Chaudhuri, of Arizona, to be Chairman of the National 
Indian Gaming Commission, you stated that you recognize the importance 
the offreservation gaming dialogue has been to Federal Indian policy 
and Federal policy in general.
    Despite what you view as a limited role for the NIGC with respect 
to offreservation gaming, the NIGC does determine whether a particular 
parcel, including those located outside the boundaries of an Indian 
reservation, constitutes Indian lands eligible for gaming which is a 
predicate for gaming pursuant to the Indian Gaming Regulatory Act. You 
indicated that the agency is bound by and employs the language of the 
Indian Gaming Regulatory Act in making that determination.

    Question 3. What is the NIGC's internal process for developing 
Indian lands opinions?
    Answer. Indian lands opinions are a service provided by the NIGC to 
the industry and to our co-regulators of Indian gaming. Requests for 
Indian lands opinions are made to the NIGC's Office of General Counsel 
(OGC). The opinions typically analyze: (1) whether land is ``Indian 
lands'' as that term is defined by the Indian Gaming Regulatory Act 
(IGRA) and our regulations; (2) if the land is trust land acquired 
after October 17, 1988, whether it is eligible for gaming under IGRA; 
and (3) depending on the nature of the lands, whether the land on which 
a tribe plans to game is within the Tribe's jurisdiction as required by 
IGRA.
    In the process of analyzing these issues, OGC coordinates closely 
with the Department of the Interior's Office of the Solicitor. The 
Solicitor is regularly asked to concur in Indian lands opinions.

    Question 4. How do these Indian lands opinions govern the work of 
the agency?
    Answer. While Indian lands opinions provide the requestor and the 
agency with an analysis of the land's status, they are not final agency 
action. These opinions provide a measure of clarity as to the status of 
particular lands, but the Chair and the Commission may disagree with 
the analysis.

    Question 5. How do these Indian lands opinions govern the ability 
of an Indian tribe to conduct gaming on the parcel at issue in the 
opinion?
    Answer. Indian lands opinions do not constitute permission for a 
tribe to commence gaming on a particular parcel of land, nor do they 
preempt states or other concerned parties from bringing legal 
challenges to the land status. They are simply opinions issued by the 
Office of General Counsel, not the Chair or the Commission.

                                  <all>
</pre></body></html>
